<html>
<title> - HOW COVID-19 IS IMPACTING SMALL BUSINESSES ACROSS THE FOOD SYSTEM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    HOW COVID-19 IS IMPACTING SMALL BUSINESSES 
                                ACROSS THE FOOD SYSTEM

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 30, 2020

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                

            Small Business Committee Document Number 116-096
             Available via the GPO Website: www.govinfo.gov
                          
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-470 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
            
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     3

                               WITNESSES

Mr. Jimmy Wright, President, Wright's Market, Opelika, AL, 
  testifying on behalf of the National Grocers Association.......     4
Ms. Kimberly Gorton, President and CEO, Slade Gorton & Co., Inc., 
  Boston, MA, testifying on behalf of the National Fisheries 
  Institute......................................................     6
Mr. Rob Larew, President, National Farmers Union, Washington, DC.     8
Mr. Collin Castore, Owner, Seventh Son Brewing, President, Ohio 
  Craft Brewers Association (OCBA), Columbus, OH.................     9

                                APPENDIX

Prepared statements:
    Ms. Kimberly Gorton, President and CEO, Slade Gorton & Co., 
      Inc., Boston, MA, testifying on behalf of the National 
      Fisheries Institute........................................    30
    Mr. Jimmy Wright, President, Wright's Market, Opelika, AL, 
      testifying on behalf of the National Grocers Association...    36
    Mr. Rob Larew, President, National Farmers Union, Washington, 
      DC.........................................................    45
    Mr. Collin Castore, Owner, Seventh Son Brewing, President, 
      Ohio Craft Brewers Association (OCBA), Columbus, OH........    58
Questions and Answers for the Record:
    Question from Hon. Nydia Velazquez to Ms. Kimberly Gorton and 
      Responses from Ms. Kimberly Gorton.........................    64
Additional Material for the Record:
    Food Report..................................................    66
    COVID Fact Sheet.............................................    84
    Statement of Jerry Scott.....................................    91
    Tysons Foods - A Home Grown U.S. Company.....................    93
    Tysons Foods Fact Sheet......................................    94
    Testing Procedures Fact Sheet................................    95
    Tyson Team Members Health and Safety - May 2020..............    96
    Craft Beverage Coalition Submission..........................    98

 
   HOW COVID-19 IS IMPACTING SMALL BUSINESSES ACROSS THE FOOD SYSTEM

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2020

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:03 a.m., via 
Webex, and in 2360 Rayburn House Office Building. Hon. Nydia 
Velazquez [chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Golden, 
Kim, Davids, Evans, Schneider, Delgado, Houlahan, Craig, 
Chabot, Balderson, Hern, Burchett, and Bishop.
    Chairwoman VELAZQUEZ. Good morning. I call this hearing to 
order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    I want to thank everyone, especially our witnesses for 
joining us today for our Committee's hybrid hearing. I want to 
make sure to note some important requirements.
    Let me begin by saying that standing House and Committee 
rules and practice will continue to apply during hybrid 
proceedings. All members are reminded that they are expected to 
adhere to these standing rules including decorum.
    During the covered period as designated by the speaker, the 
Committee will operate in accordance with House Resolution 965 
and the subsequent guidance from the Rules Committee in a 
manner that respects the rights of all members to participate. 
House regulations require members to be visible through a video 
connection throughout the proceeding, so please keep your 
cameras on. Also, if you have to participate in another 
proceeding, please exit this one and log back in later.
    In the event a member encounters technical issues that 
prevent them from being recognized for questioning, I will move 
to the next available member of the same party and we will 
recognize that member at the next appropriate time slot 
provided they have returned to the proceeding.
    In the event a witness loses connectivity during testimony 
or questioning, I will preserve their time as staff address the 
technical issue. I may need to recess the proceedings to 
provide time for the witness to reconnect.
    Finally, remember to remain muted until you are recognized 
to minimize background noise.
    Over the last few months, the outbreak of COVID-19 has led 
to an unprecedented public health crisis and created a dire 
economic crisis for small firms. Three out of four businesses 
are experiencing a decrease in revenue since March, and over 
half of small businesses are concerned about being forced to 
close. Small businesses across the food supply chain system 
have been impacted.
    As social distancing and stay-at-home orders became 
commonplace, the closing of commercial kitchens put restaurants 
and workers at the frontlines of the pandemic and the ripple 
effects hurt small firms across food production, processing, 
distribution, and retail chains.
    Companies that process and deliver food to commercial 
businesses faced abrupt order cancelations across their entire 
customer base. Farmers who planted crops and tended livestock 
for months based on pre-pandemic demands and markets were 
unable to find processors to sell their products. Fishing boats 
stayed in port, processors were backlogged, and stopped 
bringing in materials. Grocery stores struggled to maintain 
inventory as consumers rushed to buy food for at-home 
consumption.
    Many of the issues facing our food system and society 
existed pre-pandemic. Now, because of the inability to control 
the spread of the virus they are made worse. Our nation's food 
banks were already under pressure--where millions of unemployed 
Americans turn to feed their families. Sweeping consolidation 
has left us with far fewer small farms, processors, 
distributors, and retailers. Large multi-national corporations 
have received millions in federal support while small 
businesses continue to struggle to survive.
    Essential farm and food system workers on the frontlines, 
many of whom are immigrants and people of color, still lack 
basic worker protections despite experiencing high rates of 
coronavirus cases.
    Congress, especially members of this Committee have worked 
to secure funds to help America's small businesses survive this 
crisis. The Economic Injury Disaster Loan Program and Paycheck 
Protection Program (PPP) has helped millions of small 
businesses and farmers to stay afloat. Along the way we have 
tried to improve those programs ensuring that minority business 
owners and rural business owners, who often do not have 
relationships with national banks, are being served by the PPP 
program and amending the EIDL program so that small American 
farm businesses could access the program.
    More needs to be done and that is why we are here today. 
Yes, the PPP program greatly assisted five million businesses 
but there are approximately 30 million small businesses in the 
U.S. and they continue to face an uncertain future. In fact, 
the SBA reports that in May 2020, employment in leisure, 
hospitality, and foodservice was down 41 percent compared to 
May 2019. We are still hearing reports of more and more farmers 
facing bankruptcy.
    This pandemic is further highlighting an economy that was 
not working for everyone. Prior to the pandemic, 40 percent of 
Americans did not have $400 in the bank for an emergency, and 
more than 20 percent of households experienced food insecurity.
    In the past 6 months, as millions of Americans are 
unemployed, Amazon, Facebook, Target, and Walmart stock prices 
are near all-time highs. This is a tale of two economies. One 
that is working for Wall Street while main street businesses 
are left behind. Many small businesses across the food system 
are still in the difficult position of figuring out how to pay 
rent and survive while many have shut down forever. As we work 
to help assist the American people and America's small 
businesses, I look forward to hearing from our panelists today 
about how Congress can address the ongoing challenges facing 
our food system and how we can further assist in their 
recovery.
    Again, I want to thank the panelists for joining us here 
today, and I now yield to the Ranking Member, Mr. Chabot, for 
his opening statement.
    Mr. CHABOT. Thank you, Madam Chair.
    Since March, our Nation's way of life has been disrupted 
due to COVID-19. America's food system has been hit 
particularly hard. Our favorite restaurants were closed. Meat 
options were low at grocery stores and many essentials were 
sold out.
    Today's hearing will provide much needed context to these 
experiences because if we better understand the why, we can 
better prepare for the future.
    Our Nation's food system is typically geared to meet 
commercial demand--restaurants, buffets, and cafeterias, for 
example--more than retail demand, grocery stores. When our food 
demand flipped from eating out to cooking at home, businesses 
along the supply chain had to pivot to survive. Unfortunately, 
the system did not adjust quickly enough to repackage and 
distribute fresh produce, milk, and meat originally prepared 
for commercial use.
    We have all made dramatic changes to our everyday lives. 
Producers along the food supply chain have quickly adopted new 
direct-to-customer business models. New strategies and services 
such as online retail or local delivery require significant 
investments of time and money.
    Recently, I had the opportunity to spend some time in 
Waynesville back home in my district to meet with small 
business owners impacted by the COVID-19 pandemic. One business 
owner, Lacie Sims, the owner of Village Family Restaurant, 
spoke with me about how she utilized the Paycheck Protection 
Program to keep her 25 workers employed so she could continue 
to serve the community, and most importantly, those folks who 
worked for her could continue to support their families. She 
has quickly adapted her business to accommodate pickup, 
delivery, and indoor dining.
    At this Committee, we understand the power of our Nation's 
innovative spirit. Now, the rest of the country can see it 
firsthand. Investments being made by small businesses across 
the supply chain are creating a more resilient food system for 
all of us.
    I want to thank each of our witnesses who will be sharing 
their experiences and for being part of our national recovery.
    Madam Chair, thanks for holding this hearing, and I yield 
back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot.
    I would like to take a moment to explain how this hearing 
will proceed.
    Each witness will have 5 minutes to provide a statement, 
and each Committee member will have 5 minutes for questions. 
Please ensure that your microphone is on when you begin 
speaking and that you return to mute when finished.
    With that, I would like to thank our witnesses for taking 
time out of their busy schedules to join us.
    Our first witness is Ms. Kimberly Gorton, the president and 
CEO of Slade Gorton and Co. She is the third generation of 
Slade Gorton, a manufacturer and primary distributor of fresh 
and frozen seafood products.
    Our second witness is Mr. Jimmy Wright, the president of 
Wright's Market, a family-owned independent grocery store that 
has been innovative in online and mobile shopping.
    Our third witness is Mr. Rob Larew, the president of 
National Farmers Union, which represents family farmers and 
ranchers across the country.
    Finally, I would like to turn it over to the Ranking 
Member, Mr. Chabot, to introduce our last witness.
    Mr. CHABOT. Thank you, Madam Chair.
    Mr. Collin Castore is cofounder of Seventh Son Brewing 
which opened in April of 2013 and its sister brewery, Antiques 
on High which opened in November of 2018. He developed a 
passion for American craft beer, especially Ohio craft beer 
while working in restaurants and bars across Columbus. For the 
past 6 years, Mr. Castore has served as the president of the 
Ohio Craft Brewers Association which represents more than 300 
craft breweries across the state. I had the pleasure of meeting 
Mr. Castore during the Brewers Association Virtual Hill Climb 
in July. I want to thank him for taking time away from his 
business to be with us here in D.C. today. It is nice to see 
him and we definitely appreciate it, especially being here in 
person. So thank you.
    I yield back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot. Thank you all 
for being here.
    I would now like to begin by recognizing Ms. Gorton for 5 
minutes.
    Ms. Gorton, you might need to unmute.
    Ms. Gorton apparently is having some technical 
difficulties, so we are going to recognize Mr. Wright for 5 
minutes.

    STATEMENTS OF JIMMY WRIGHT, PRESIDENT, WRIGHT'S MARKET; 
KIMBERLY GORTON, PRESIDENT AND CEO, SLADE GORTON AND CO., INC.; 
 ROB LAREW, PRESIDENT, NATIONAL FARMERS UNION; COLLIN CASTORE, 
   OWNER, SEVENTH SON BREWING, PRESIDENT, OHIO CRAFT BREWERS 
                       ASSOCIATION (OCBA)

                   STATEMENT OF JIMMY WRIGHT

    Mr. WRIGHT. Good morning, Chairwoman Velazquez, Ranking 
Member Chabot, and Committee members. I am Jimmy Wright, the 
owner of Wright's Market, an independent grocery store located 
in Opelika, Alabama. It is an honor to share my experience as a 
single store food retailer serving on the frontlines of the 
COVID-19 pandemic.
    I am testifying on behalf of the National Grocers 
Association, the trade association representing the independent 
supermarket industry.
    Wright's Market is a family-owned business. It started as a 
small convenience store in 1973 and evolved to a 22,000 square 
foot full-service grocery store.
    Independent grocers like me are deeply rooted in the 
communities we serve. Our Mayor Gary Fuller has allowed me the 
opportunity to join you virtually from city hall, a testament 
to the strong support we receive from our community leaders.
    To say 2020 has been a challenging year would be an 
understatement. Since mid-March, independent grocers have 
experienced sustained and historic levels of demand for grocery 
and household products. We have had to adapt to large volumes 
of customers stocking up weeks' worth of food, straining the 
supply of key product categories like paper, cleaning supplies, 
and shelf-stable products. Seven months into the pandemic, the 
supply chain continues to cope with major product shortages.
    Throughout the pandemic, we have dealt with significant 
operational challenges to keep up with demand while working to 
provide the best environment for customers and employees, 
including adapting enhanced cleaning measures and using 
protective equipment.
    It has not been easy. I would like to say independent 
grocers are flying a plane and building it at the same time.
    But I want to pause and say thank you to all our dedicated 
employees who know the importance of our work to the community. 
We call them our supermarket superheroes.
    Although independents are resilient in overcoming 
operational challenges, we have seen the competitive playing 
field tilted against us and our largest competitors in the 
pandemic in several ways.
    The first is due to economic discrimination. Inconsistent 
distribution and apparent shortages of high-demand products is 
not just a symptom of the current crisis; it is a direct result 
of a lack of anti-trust enforcement and the dominance of power 
buyers in the marketplace. Dominant retailers use their size 
and scale to impose discriminatory conditions on manufacturers 
and suppliers in a way that disadvantages smaller independents 
which impedes our ability to compete.
    For decades, independent grocers have not had access to 
pricing, promotions, and packaging deals that are provided to 
larger firms. Since March, these problems have worsened as 
power buyers use their market power to demand prioritization to 
distribution of high-demand products. I have lost access to 
both popular products and promotional pricing as I have watched 
my big box competitors continue to sell all products 
unavailable to me. This has made us much less attractive to 
customers seeking one-stop shopping in the pandemic.
    The effect of buyer power is not only felt by small grocers 
but it harms consumers that live in rural areas serviced by 
independents with a strong enforcement of U.S. anti-trust laws 
ensure our ability to compete for the benefit of all Americans.
    The second competitive issue is our limited ability to sell 
products to SNAP customers online. The pandemic has accelerated 
ecommerce, a trend we saw coming. Wright's Market lost our 
ecommerce service in 2016. We were fortunate to have been 
selected for the USDA SNAP online purchasing pilot which allows 
customers to use their benefits online and launched in March, 
just days before national emergency declaration. Unfortunately, 
the technical barriers and cost to participate in SNAP online 
make it difficult for small retailers and has also worked 
through an extensive application and testing process. Our store 
remains the only single-store operator to launch.
    Meanwhile, Amazon and Walmart have expanded their SNAP 
online program almost nationwide. Independents need a quicker 
approval process, less technical barriers, and lower 
implementation costs to compete. A level playing field is 
critical to preserving a thriving and vibrant independent 
grocery sector.
    I appreciate your attention to my concerns. Thank you for 
the privilege to testify today. I look forward to answering 
your questions.
    Chairwoman VELAZQUEZ. Thank you, Mr. Wright.
    Now we recognize Ms. Gorton for 5 minutes.
    Ms. Gorton, you need to unmute.

                  STATEMENT OF KIMBERLY GORTON

    Ms. GORTON. Thank you, Chairwoman Velazquez, Ranking Member 
Chabot, and distinguished members of the Small Business 
Committee.
    I am president and CEO of Slade Gorton and Company. I am 
pleased to have the opportunity to appear before the Committee 
today to discuss how the seafood supply chain has been impacted 
by the COVID-19 pandemic.
    Slade Gorton is a third-generation family business based in 
Boston. We are one of America's largest seafood processors and 
distributors and are proud of our record of supplying hundreds 
of millions of healthy and safe seafood meals to American 
families for over 90 years.
    More than 1.7 million Americans work in the U.S. seafood 
industry, half a million of whom work in the middle of the 
supply chain, many for small family-run companies like mine. 
Without us, the fishermen's bounty would never make it off the 
docks. We are the vital link that gets seafood from our oceans 
to your table.
    Over two-thirds of our industry's $150 billion in annual 
sales come from restaurants and other food service 
establishments, such as university dining halls, hospital 
cafeterias, and cruise ships. With capacity limits in place at 
many restaurants and the closure of many other public eating 
venues, seafood companies all across the supply chain are at 
serious risk of failing.
    This has left our industry in unchartered waters. We have 
had to deal not only with billings and lost sales, but also 
with the job losses that go with such an unexpected downturn. 
My company alone lost over 70 percent of its business in the 
immediate weeks following the nationwide shutdown. Many 
struggling companies rushed to freeze and store product. Some 
even began selling directly to consumers. Even with that 
effort, millions of dollars' worth of fresh product that could 
not be sold or stored had to be destroyed.
    And when restaurants moved to curbside pickup and delivery 
service, seafood did not get its fair share. Fish simply does 
not travel as well as other meal options.
    Even with partial reopenings, restaurant operators are 
faced with increased costs at a time when many are operating at 
below breakeven capacity. All have had to find ways to simplify 
service and menus and cut food costs, so it is only through 
ingenuity, resilience, grit, and determination that companies 
like Slade Gorton have been able to survive thus far.
    One of the biggest issues currently affecting the seafood 
supply chain is related to the large unpaid debts owed to 
distributors for food that restaurants could not sell during 
the mandated shutdown.
    Now that foodservice establishments are open and working to 
reopen, they will need to rely on their suppliers to continue 
to provide credit so they can restock their kitchens. We are 
now faced with choosing to extend further credit at some risk 
or abandoning what are in many cases decades-long customer 
relationships. My company has chosen to stick by our customers 
because without them we have no future.
    We estimate that the seafood industry has about $2.2 
billion in outstanding bad debt in addition to the estimated 
$10 billion of bad debt for the larger foodservice community. 
This is not something that can be absorbed by small business. 
We need help to fix this.
    While my company was fortunate enough to receive a PPP loan 
which has certainly helped us to rehire our furloughed 
employees and keep them onboard thus far, I am afraid these 
funds will not be enough to sustain small businesses through 
what is a much longer economic recovery than we imagined early 
on.
    If we are going to help the economy get back on track, we 
need to help small businesses survive this pandemic. Current 
figures suggest that 25 percent of all restaurants in the 
United States have closed forever. It is imperative that 
Congress pass another stimulus bill to include expanding the 
scope of expenditures that qualify for forgiveness. Allowing 
restaurants to use funds to pay off their current debt so they 
can afford to purchase new food and supplies and rehire staff 
will go a long way toward preventing additional business 
failures.
    Additionally, restaurants, retailers, and all businesses 
seafood value chain are now faced with increased costs 
associated with frequent sanitizing, new employee training 
regimens, retrofitting processing lines, retail spaces, and 
restaurant dining rooms and providing PPE for employees. These 
increased yet necessary operational costs are prohibitive as we 
struggle to adapt.
    I urge Congress to consider Federal grants or tax credits 
to help pay for these critical safety measures. Ultimately, 
jumpstarting the economy requires continued support for those 
businesses who drive 80 percent of our GDP, small businesses.
    The seafood supply chain is a complex one but one that 
helps ensure every American has access to this healthy and 
sustainable protein. We need our government to recognize the 
seafood community as the broad and diverse system we are. I 
implore you to act now in support of small business, seafood 
businesses, and our industry's lifeblood, restaurants. Food is 
the foundation of health and well-being and is at the center of 
happiness, human connection, and a vibrant Nation. Our families 
have fed your families for generation. Our families now need 
you.
    Thank you for allowing me to discuss the impact of COVID-
19.
    Chairwoman VELAZQUEZ. Thank you, Ms. Gordon.
    Now we recognize Mr. Larew for 5 minutes.

                     STATEMENT OF ROB LAREW

    Mr. LAREW. Good morning. Thank you, Chairwoman Velazquez, 
Ranking Member Chabot, and members of the Committee. And thank 
you for the opportunity to speak today.
    As mentioned, I am Rob Larew, and I serve as president of 
the National Farmers Union. We work to ensure that farm 
families and their communities are respected, valued, and enjoy 
economic prosperity and social justice. Thank you for 
addressing the challenges that farmer and the food system face 
during this time of crisis and public health in the economy and 
in our society.
    In recent decades, our members have been hard hit by 
corporate consolidation among companies who sell inputs to 
farmers and among companies who purchase what farmers produce. 
This mounting market concentration has been compounded by low 
crop prices, a global trade war, and increasingly frequent 
severe weather events.
    Since 2012, annual net returns for farmers have trended 
downward for major row crops due to rising product costs and 
declining prices for commodities. As the pandemic took hold, 
consumer demand shifted dramatically with the closure of 
restaurants, schools, and other institutions. Processing 
facilities, particularly in the meat sector, were shut down due 
to outbreaks among workers. At least 370 meat packing plants or 
one-third of the national total experienced COVID-19 outbreaks 
as of last week. There were nearly 43,000 cases in the meat 
packing sector alone.
    Supply chains were interrupted and many farmers suffered 
financial struggles while the price of food for consumers 
increased.
    The U.S. Department of Agriculture prices received by 
farmers index showed a 6 percent decrease from April through 
July 2020 as compared to the same period in 2019. Farmers 
losses have not been passed on to consumers who instead are 
paying more for food. So far in 2020, the consumer price index 
for food is 3 percent higher than 2019.
    As supply chains adjusted to new consumer demand patterns 
and processing facilities have largely reopened, problems 
linger for the farm and food system. The price of corn has been 
severely affected following demand for ethanol as 40 percent of 
corn grown in the U.S. is used for biofuel production.
    Stay-at-home orders kept Americans off the road and fuel 
consumption dropped sharply costing the ethanol industry $10 
million in sales. To make matters worse, EPA's broad allowance 
of small refinery exemptions and an unwillingness to permit 
higher blends of ethanol have further eroded corn prices.
    While the disruptions caused by the pandemic are 
unprecedented, many of the problems we face are nothing new. 
The pandemic revealed the fragility underneath our food and 
farm systems. As farmers, we are optimists and urge 
policymakers to apply lessons learned this year to address the 
long-term issues.
    In order to be more resilient, we need to build a robust 
regional food infrastructure. A good start would be stronger 
anti-trust enforcement from Federal agencies, like the 
Department of Justice, the Federal Trade Commission, and the 
U.S. Department of Agriculture. Farmers and ranchers need more 
choices for marketing their crops and livestock. To do this, we 
need to spur development of small and mid-size processing 
plants. In the meat industry, an important step in that 
direction would be the RAMP-UP Act, which was included in the 
recently revised HEROES Act.
    Earlier this year, this Committee helped farm businesses 
gain access to Small Business Administration Programs. A 
lingering barrier to access PPP is the requirement to show 
positive net income because more than half of farms have 
negative income in recent years. And if you would support H.R. 
7175, the Paycheck Protection for Producers Act which would 
allow farmers with net negative income in 2019 to qualify for 
the program using gross income instead.
    Lastly, pandemic aid efforts have helped farmers withstand 
the current crisis but future efforts should focus on policy 
changes to address the causes rather than simply the symptoms 
of a broken farm economy. One way to do this is through a cost-
effective supply management system for farm commodities that 
would balance production with consumer demand.
    Thank you for this opportunity to address the Committee and 
I welcome your questions.
    Chairwoman VELAZQUEZ. Thank you, Mr. Larew.
    Now we recognize Mr. Castore for 5 minutes.

                  STATEMENT OF COLLIN CASTORE

    Mr. CASTORE. Chairwoman Velazquez, Ranking Member Chabot, 
and members of the Committee, thank you for your statements to 
begin this, and thank you for asking me here to testify today.
    My name is Collin Castore, and I am founder of Seventh Son 
Brewing Company and Antiques on High located in Columbus, Ohio. 
I also serve as board president of the Ohio Craft Brewers 
Association, representing 351 breweries in the Buckeye state.
    Seventh Son has been producing beer since 2013. In the past 
7 years, we have watched our business grow to two locations, 
around $5 million in sales, and around 70 employees.
    I have always been proud of the fact that for every new job 
created in beer there are 24 jobs generated in the industries 
that help us to brew and sell our beer.
    Unfortunately, this goes both ways. According to a recent 
report by the economic firm John Dunham and Associates, 651,000 
jobs supported by the U.S. beer industry will be lost by the 
end of the year due to COVID-19.
    Prior to the coronavirus changing our world, Seventh Son 
sold our beer through taprooms, restaurants, bars, and 
retailers throughout Ohio. The uncertainty over the past 6 
months has made it extremely difficult to continue to run this 
business. Summer is the busiest time for most breweries and in 
Ohio we are limited to around 40 percent of our normal capacity 
and have had a 10 p.m. curfew imposed since May on alcohol 
sales. Some states have guidelines that have actually made it 
impossible to operate on-premise tasting rooms and many would 
welcome Federal guidance and consistency to help with these 
issues.
    The majority of breweries in the United States make the 
majority of their revenue from taprooms and tasting room sales. 
Estimates by the Brewers Association suggest that small brewers 
have seen on-premise sales revenues go down 30 percent since 
March.
    Most breweries get their wholesale revenue from on-premise 
sales to restaurants, bars, and concern venues which have been 
severely restricted over the past 6 months. These outlets sold 
nearly 20 percent of the total U.S. beer volume annually. Their 
closures resulted in an estimated $900 million worth of beer 
that will need to be destroyed.
    Data from September shows draft sales still around one-
third lower than this point last year.
    At Seventh Son, we have our own canning line and some 
existing relationships that helped us to absorb most of this 
on-premise volume loss. On March 16th, we began a home delivery 
business and carryout sales model out of our shuttered tap 
rooms. These measures were a lifeline but our head is very much 
still barely above water.
    We completed a $5 million expansion in 2018 and have a 
wonderful facility but also the debt to go with it. When we 
sell a can of beer to our distributor, we get $5 less than when 
we sell that same can of beer out of our taproom. We built our 
expansion for future wholesale growth but taproom revenue is 
absolutely essential to support it.
    I am sure you have seen the headlines referencing increased 
alcohol sales. Those increases must be offset against the 
massive decline in sales at on-premise channels. The size of 
the overall pie has not shifted even as the individual slices 
appear different.
    Even with those increases that we have seen in off-premise, 
the brewing industry is expected to lose $22 billion in 2020. 
In addition, the increased demand for cans, both in and outside 
of our industry, has caused an aluminum can shortage in the 
U.S.
    Another issue that we have seen during the pandemic is that 
many ethanol plants that captured commercial CO2 were taken 
offline. The production partially has ramped back up. Our 
industry still sees signs of a shortage caused by natural 
disasters and unexpected closures. For our industry to survive, 
breweries need certainty and we need financial assistance.
    Please pass the bipartisan Craft Beverage Modernization Tax 
Reform Act and make the current Federal excise tax rates 
permanent. If the current tax rates expire, my Federal excise 
tax rates will go up 100 percent starting in January. This 
would cost me $25,000 which essentially costs me an employee.
    We appreciate Congress's swift action at the beginning of 
the pandemic with the CARES Act. It resulted in thousands of 
breweries receiving money from the Payroll Protection Program. 
I would very likely not be here had it not been for the 
$359,000 that we received. The program was not perfect but we 
can ensure its success by forgiving all of the PPP loans of 
less than $150,000 to small business. Adding additional funds 
to this program and allowing businesses that can show revenue 
losses to apply for another loan. Give us the ability to write 
off the funds that were used as business expenses as well, and 
allow 501(c)6s, like the Ohio Craft Brewers Association, the 
ability to apply for PPP loans. Our guild has helped us more 
than double the number of breweries in Ohio in the past 5 years 
helping to create more than 21,000 jobs.
    In conclusion, I feel strongly that Seventh Son needs 
another round of PPP to survive the impacts of COVID-19, but 
please also consider passing the Restaurants Act and Restart 
Act, both of which would provide small breweries with grants 
rather than debt and allow us more flexibility in how we use 
those funds.
    We also encourage Congress to consider a credit for 
unmerchantable goods that had to be destroyed due to supply 
chain interruptions caused by the virus.
    For the past decade, the United States brewing industry has 
been a success story in American manufacturing and job 
creation. We need your help to weather this pandemic and 
continue to grow and thrive.
    Thank you very much for your time.
    Chairwoman VELAZQUEZ. Thank you, Mr. Castore. We appreciate 
all you have shared with us.
    Let me begin by recognizing myself for 5 minutes.
    I would like to start off with my first question to Mr. 
Wright.
    The Census just reported that one in 10 adults do not have 
enough food to eat, and 27 percent of households with children 
are food insecure. As we strive to ensure that hungry people 
have access to food during this pandemic, why are there so few 
small retailers approved by the administration for online SNAP 
purchases?
    Mr. WRIGHT. We appreciate the opportunity to be included in 
that pilot. I think there are several things that make that a 
challenge for smaller retailers. Certainly, one is the 
technical aspect of navigating that to be able to get set up. 
From a small retailer standpoint there are costs with setting 
the system up. There are costs to processing part of that 
overall assistance that are needed from a rate cutter to 
understand a program. We have already experienced in our 
launch, and we launched one week before the pandemic buying 
started, we recognize in our launch already that there is an 
education process we need to go through to be able to inform 
the customers of how to use the program. We would advocate for 
the SNAP Online Options Act. I believe it is H.R. 7535, to be 
able to allow retailers to expand online options. In our own 
area what we would have is the ability to deliver to rural 
areas around us. So it is a technical process to work through, 
an application process to work through. We were very fortunate 
to have a----
    Chairwoman VELAZQUEZ. Okay. Mr. Wright, time is running out 
and I need to ask another question. Thank you so much for your 
answer.
    Mr. Larew, I recently introduced the Mobilizing Restaurants 
in America Act so that SNAP recipients can gain access to food 
and while also supporting struggling restaurants. How important 
is updating and funding SNAP and other nutrition programs like 
the Double Up Bucks Program to farmers, farm workers, and small 
businesses across rural America?
    Mr. LAREW. Oh, it is absolutely essential, and we 
appreciate your leadership in this area. SNAP remains the most 
efficient way to address food insecurity out there. So as we 
look at ways to further bring resilience in that delivery, we 
have certainly seen a lot of hiccups with the pandemic, ways to 
pivot, if you will, to make sure that SNAP and ultimately good 
quality food is available from farmers and connect that to 
consumers including and especially those in food insecurity. 
So, it is vital. And all of the programs along with it, you 
have mentioned the Double Up Bucks, et cetera, and USDA 
programs to connect farmers to the consumers, all of those 
issues are critically important.
    Chairwoman VELAZQUEZ. Thank you.
    Ms. Gorton, restaurants and small firms across the supply 
chain are continuing to struggle and that has resulted in 
issues for food processors and distributors. PPP assisted many 
in your industry, including yourself. What other steps do you 
recommend that Congress and the Small Business Administration 
take so that we could address the challenges that you are still 
facing?
    Ms. Gorton, you need to unmute yourself.
    Ms. GORTON. Thank you, Chairwoman.
    So I think there are several things that we would ask 
respectfully that Congress address. I think, first and 
foremost, that USDA must allow seafood in their programs. Thus 
far, seafood has not been included in all of their programs. It 
is an important protein and we would ask for it to be included.
    Chairwoman VELAZQUEZ. Ms. Gorton, we are having 
difficulties hearing what you are saying, so I will ask that 
maybe you could submit an answer to the Committee on that 
question.
    Ms. GORTON. Certainly. Certainly.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Wright, since the outbreak of the pandemic, stores 
around the country have struggled to stay stocked with in-
demand products. What role has increased corporate 
consolidation and market control played in your ability to 
source and sell products?
    Mr. WRIGHT. We have seen an increase in the larger players 
being able to access products that we are not able to get, 
especially some of the key products such as comfort food items 
such as pasta and rice and beans and some of those things. 
Paper products, cleaning supplies. All those things have been 
very difficult for us to source due to such power from the 
larger retailers. I can walk in those stores and see those 
products on the shelf that I am not able to source.
    Chairwoman VELAZQUEZ. Do you feel that there is any role or 
impact that corporate consolidation and market control has to 
do with that?
    Mr. WRIGHT. Yes, ma'am. As retail consolidation continues 
on the retail side, we continue to see larger big box retailers 
have more and more power and being able to put pressure on all 
the manufacturers that they will get product to the point of 
actually penalizing some of these suppliers if they do not get 
the bill rate that they are looking for. Again, that is taking 
product away from the smaller retailers, including grocers.
    Chairwoman VELAZQUEZ. Thank you. My time has expired.
    Now we recognize the Ranking Member, Mr. Chabot.
    Mr. CHABOT. Thank you, Madam Chair.
    Mr. Castore, I will begin with you.
    You had mentioned that it is much more profitable in the 
taproom than what you sell, you make per unit a lot more there, 
obviously. And then you mentioned the 10 p.m. curfew that we 
have in Ohio, that you have to cut off at 10 p.m. has had a 
pretty dramatic impact on your sales. My district, we are down 
at the bottom of the state. You are Columbus, I think, and I am 
Cincinnati, so we have Kentucky right across the Ohio River 
there. And so the 10 o'clock, what we have heard and it has 
been on the news and written about, and I know the businesses 
are feeling this, you know, they can just leave Ohio and go 
over into Kentucky and take their business over there.
    How have you been affected up in Columbus on the 10 p.m. 
curfew, and do you have any recommendations on that perhaps? 
Not that we can do that here but the states obviously make that 
on a state-by-state basis, that determination.
    Mr. CASTORE. Sure. My own experience with the curfew, it is 
definitely hurting our sales. Definitely not helping our sales. 
We do not have Kentucky across the river but we do have Ohio 
State University, and we are a relatively large city, a million 
and a half people. So what we are seeing is people go out until 
10 p.m. and then they just go to house parties, gatherings 
where they might not be socially distanced whereas at 
responsible restaurants and bars across Ohio we are actually 
practicing social distancing, passing out masks, doing all 
these things. And ironically, I feel like people are a lot 
safer going out sometimes than going to these more like private 
gatherings.
    Mr. CHABOT. Okay. Thank you very much. I appreciate it.
    Ms. Gorton, I am going to go to you next, although I think 
you and I purchased our wi-fi at the same place because when we 
are at my home doing these things I had that breaking up a lot 
apparently but I am going to try it.
    You mentioned, you indicated that you lost over 70 percent 
of your business in the weeks following the nationwide 
shutdowns. How did you adjust your business operations to try 
to survive during that time?
    Ms. GORTON. Thank you. Hopefully, you can hear me now.
    So, well, as with any businesses, you know, the first week 
really affects the supply by slowing down the flow of goods in 
our supply chain. Us and other companies, we had to freeze some 
of our fresh product. We had to put product in cold storage. 
Which affected the cash flow. We worked very hard with 
customers to make sure that we could continue to support their 
operational demands, working closely with our suppliers to be 
able to help them.
    And first and foremost, our primary focus was keeping our 
employees safe, and that really required in our plans making 
sure that we implemented additional measures. We invested in 
new technology. We have invested in a tremendous amount in PPE 
and in training to make sure that our workers are safe, we 
could continue to process seafood. We are very fortunate in 
that we have had no disruption in our supply chain during this 
time.
    I do understand though that a number of other seafood 
processors have had disruption in their business. I think 
particularly some of the processors in Alaska who have a 
tremendous amount of seasonal workers and had to put them up in 
hotels for 14 quarantine days.
    Mr. CHABOT. Thank you. Thank you.
    I am going to try to get one more question in. I have a 
little over a minute to go.
    Mr. Wright, I will go to you next.
    How have you adjusted your inventory as we continue to deal 
with the coronavirus restrictions? Has that changed over time? 
You know, how have you handled that to try to stay maybe not 
profitable but, you know, to survive?
    Mr. WRIGHT. From the supply side we have just had to expand 
on the items that we could source and our suppliers have had to 
look for sources we traditionally would not, you know, be 
buying product from. In our own case, we actually, with all the 
toilet paper shortages that were there, we actually ended up 
sourcing some toilet paper from a factory in Mexico in order to 
be able to have some product to sell. A lot of brands and major 
selling items we cannot get back to the large power buyers but 
if there is a reasonable item or something we were able to 
supply was fresh meat. That was the one that really was 
critical to us because it is such a large portion of our 
business. And again, that is evident if consolidation in that 
industry and the challenges that were made on the retailers 
side when the pandemic hit and so many of those places closed.
    Mr. CHABOT. Thank you very much.
    Madam Chair, my time has expired. I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentlelady from Iowa, Ms. Finkenauer, 
Chairwoman of the Subcommittee on Rural Development, 
Agriculture, Trade, and Entrepreneurship.
    Ms. FINKENAUER. Thank you, Madam Chair. And thank you for 
holding this hearing today. Obviously, this is a huge issue 
that we are still dealing with in the middle of this pandemic, 
and it is something that has hit close to home in my district 
in particular.
    So my question is to Mr. Larew. So in Iowa, workers in my 
state and in my district lost their lives as a result of COVID-
19 outbreaks in large meat processing plants. Not only 
obviously was this devastating for the communities and the 
families where these processors are among the biggest 
employers, it created disastrous consequences for our food 
supply chain, especially for our livestock and poultry 
producers.
    I recently actually cosponsored something you talked about, 
the RAMP-UP Act, which would obviously create more competition 
into the processing sector. So how do you think, and can you 
expand upon this, these types of investments in our small 
plants could help us prevent some of the issues we saw with 
worker safety and then depopulation in Iowa?
    Mr. LAREW. Yes, absolutely. And it is an important issue 
that you bring up because really what we are talking about here 
is taking ourselves from what is a very concentrated, arguably 
very efficient to some, but one that really has no resilience 
built into it. And the RAMP-UP Act that you mentioned is an 
important step in shifting ourselves from a very concentrated 
marketplace to one that is much more local and regional based, 
building in more systems for options for producers help take a 
lot of the stress out. It also would ensure much more focus on 
worker safety and support. So again, taking ourselves away from 
a very efficient-driven system that is so concentrated and has 
so many workers at all once into something that creates much 
more opportunity for rural communities I think is a huge step 
forward.
    Ms. FINKENAUER. Great. And you know, I obviously agree but 
I also want to touch even further here on the issue of 
competition. I have heard real issues with price transparency 
from our cattlemen and also helped introduce legislation to 
require packers to buy at least half their slaughter on the 
spot market. Thinking back to the high prices, obviously, of 
beef and what we have seen during this pandemic, at least in 
the grocery stores but does not always come back to our 
producers, how could more transparency help our cattlemen and 
make our supply chain more resilient?
    Mr. LAREW. You touch on another key piece of this. Right? 
Not only do we have a huge concentration, we have four beef 
companies controlling over 80 percent of the beef market. We 
have just 50 meat plants out there that manage 98 percent of 
the processing. It is an incredible concentration.
    But the other piece of this is that we do not have a true 
cash market price out there. And so for these small business 
owners, these independent family farmers and ranchers, they 
have no way to truly understand where the market is. There are 
a slew of lawsuits going on right now related to price 
manipulation in the meat industry, and I think this is another 
key component of that. So measures such as the one you 
referenced and that our members are actively advocating for up 
on Capitol Hill would be an important piece of reestablishing a 
true operating market and certainly a key piece of that is 
price discovery. And so more information will be better.
    Ms. FINKENAUER. Well, thank you, Mr. Larew. And I know, you 
know, obviously, these issues have always been important; 
right? But now going through this pandemic, and I have seen 
this now through many different issues, whether it is access to 
broadband and needs for that, going through a pandemic these 
issues are really heightened and under scored in a number of 
ways and these are just things we have got to get right and we 
have got to get right fast because especially when it comes to 
our supply chain, when it comes to making sure of the flow, we 
just cannot take for granted anything and thank you for your 
testimony today as well.
    Mr. LAREW. Thank you.
    Ms. FINKENAUER. And with that I yield back, Madam Chair.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Now we recognize Mr. Balderson from Ohio, Ranking Member of 
the Subcommittee on Innovation and Workforce Development for 5 
minutes.
    Mr. BALDERSON. Thank you, Madam Chair, and Mr. Castore, 
thank you for being here. I am one of the three representatives 
along with Congressman Stivers and Congresswoman Beatty that 
represent Central Ohio, so it is great to see you here, and I 
know your establishment. So thank you.
    In your testimony you mentioned three major efforts 
Congress needs to undertake in order to help small business 
brewers such as yourself. These three issues being passage of 
H.R. 1175, the Craft Beverage Modernization and Tax Reform Act; 
specific adjustments to PPP and other SBA loan programs; and a 
tax credit for perishable goods that had to be destroyed due to 
supply chain disruptions.
    As a cosponsor of H.R. 1175, the Craft Beverage 
Modernization and Tax Reform Act, I am hopeful we can pass this 
bill and provide you with this tax relief.
    I would like to ask you about your comment about a tax 
credit for perishable goods. How did your business account for 
the loss of perishable goods prior to COVID?
    Mr. CASTORE. Thank you. Prior to COVID, we did not have a 
lot of loss from perishable goods. We would, of course, we have 
made a lot of different styles of beer every now and again. 
Something would not work quite right. It is still a commodity. 
It is a perishable good in general. But we did not run into the 
kind of volume and the kind of circumstance that precipitated 
just having to immediately cut off sales. And then in our case 
we were able to repackage some as cans but we still just dumped 
beer. I have never seen anything like it. And it is not just 
us. It is restaurants dumping beer. It is wholesalers dumping 
beer. It is the actual breweries dumping beer. But this is 
good, when people mistreat beer and put it in their car or 
something, you know, think of it like milk. It actually has an 
expiation date. It goes bad. And a lot of beer went bad.
    Mr. BALDERSON. I agree. I talked to a couple friends of 
mine in my home county that also do the same thing and we 
talked about that.
    I would like to ask you about your comment about a tax 
credit for perishables. How would this tax credit differ from 
existing practice?
    Mr. CASTORE. I would probably not be the best person to 
comment on the mechanics of it. But it seems more like this was 
a one-time circumstance. This was a once in a lifetime kind of 
experience that we have been through, so some type of tax 
credit, some type of structure, not a permanent structure like 
the Craft Beverage Modernization. We would like that to be 
permanent. In terms of practice, we would just like this to be 
a one time help us out with what we need.
    Mr. BALDERSON. Agree. Thank you very much, and again, thank 
you for being here today.
    Mr. CASTORE. Thank you.
    Mr. BALDERSON. My next question is for Mr. Wright. I would 
be interested to hear your perspective on this matter. How did 
your independent grocery store account for food loss prior to 
the virus?
    Mr. WRIGHT. Prior to the virus we worked very hard every 
day to control the amount of waste and shrink that we have. 
Anything that we have that we can donate to food banks and such 
as that we do those things. So we just try to manage that 
supply chain very well and make sure we offer the freshest 
product and do not have a tremendous amount of loss that we end 
up having to pass on through our pricing somewhere.
    Mr. BALDERSON. Thank you.
    Would you be able to quantify the financial cost your 
business has had to incur because of disruptions in the food 
supply chain?
    Mr. WRIGHT. For us it was a lot of overtime. Certainly as 
business ramped up we had a tremendous amount of overtime for 
employees. We did some additional bonuses. Investments that we 
made in plexiglass dividers at the registers, PPP equipment and 
all those things. Also, for us it was a loss of margin in a lot 
of places as we tried our very best not to raise prices. And 
this goes back to the situation with meat. We held our prices 
down as low as we possibly could to cover our cost and be able 
to try to give the customer the best price we could. Even 
though things went up, we made very, very little margin on some 
of those items. So we had loss of margin, increased expense in 
operating the store, and investments also in the equipment in 
the facility to be able to provide a safe shopping environment 
for the customer.
    Mr. BALDERSON. Okay, thank you.
    I am going to try to get this in. I might run out of time 
so I will cut you off. But finally, I introduced legislation to 
provide small businesses with up to $25,000 in tax credits for 
the purchase and replacement of PPE. How significantly would 
this help your business?
    And I am sorry, sir, but we are out of time. We will follow 
up with you on that.
    I yield back, Madam Chair.
    Mr. WRIGHT. Thank you.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    The gentlelady, Ms. Davids, from Kansas is recognized for 5 
minutes.
    Ms. DAVIDS. Thank you, Chairwoman. And thank you to you and 
Ranking Member Chabot for holding this hearing today. I am 
really glad we are focusing on the massive impact we have seen 
from the pandemic, the devastating impact really on our food 
system and especially on our restaurants.
    You know, one of the things I get to do as the 3rd District 
representative is talk up Kansas and the Kansas City metro 
area. For folks who do not know, we cannot talk about our KC 
region without talking about barbeque. And you know, this is 
everything from Joe's KC to John's Barbeque and Slaps and so 
many others that are really not just part of the culture of the 
place but are huge economic drivers. And they are often small 
businesses. And we know restaurants across the country are 
facing enormous challenges and we have seen so many inspiring 
examples of folks who are stepping up and doing everything they 
can.
    I have been proud to be a cosponsor of the Restaurants Act 
which would create a new grant program for the restaurant 
industry, and right now we are seeing the far-reaching impacts. 
And that is on the restaurants and the suppliers.
    Ms. Gorton, I wanted to ask you first, in your testimony 
you had mentioned the difficult situation that you are facing 
as a supplier as your customers try to reopen and need 
additional credit. Could you talk a little bit on that position 
that you are in, that your customers are in, and how you have 
been addressing it?
    Ms. GORTON. Yes. I am going to try to speak on my phone. 
Hopefully this is more clear. We are having a bad storm here in 
Boston. I think it is affecting us.
    I think it is really just a matter of we have had to extend 
credit terms, and the way we have worked it with our customers 
is that as they ramped back up they are now paying us for the 
products that they are buying now and what we are working with 
them on is to put in place payment plans for them to help pay 
us back for the product that they purchased just prior to the 
shutdown. In some cases that is working well. In other cases it 
is not. I think that if Congress is not able to pass more 
relief and a stimulus for restaurants in particular, as the 
original PPP funds run out we are going to start to see a lot 
more failures which will have a domino effect on companies in 
the food industry and specifically the seafood industry. I 
think as I mentioned, 70 percent of seafood is consumed outside 
the home, and so as restaurants fail, we, as an industry, have 
a disproportionate effect to other industries.
    Ms. DAVIDS. Yeah. So you started to get into legislation 
that we have passed. I am curious, what are your thoughts about 
how we as legislators can ensure that supply chains supporting 
restaurants are also supported during this time?
    Ms. GORTON. That restaurants are supported? Well, I think 
that the legislature----
    Ms. DAVIDS. And the suppliers.
    Ms. GORTON. And the suppliers. Well, I think one of the key 
things that you could do is to ensure that the PPP funds that 
are available can be used for covering bad debts. That would go 
a long way towards helping people in our supply chain. Right 
now the funds are primarily used to keep people employed and to 
pay utility and rent costs. However, our biggest challenges 
come from the risk that we have associated with bad debt. So if 
the PPP funds could be extended to include restaurants' ability 
to use those funds to pay off their bad debt that would 
certainly help companies like mine immeasurably.
    Ms. DAVIDS. Thank you. And thanks for taking the time to 
testify here today.
    I was hoping to switch gears really quickly.
    Mr. Wright and Mr. Larew, I wanted to know if you have some 
ideas about improving food assistance programs during this 
time. I am sure you all after seeing everything have some 
thoughts on that.
    Mr. WRIGHT. In my case, just continuing to have a strong 
SNAP program would be a key to that. Also, being able for 
independents to offer online SNAP would be a tremendous asset 
for the customers that either cannot get to the store or choose 
not to come to the store during the pandemic. So a strong SNAP 
program and an ability to go online for everyone to be able to 
offer that. Right now, only Amazon and Walmart are able to 
offer that. Myself and one other operator, regional operator in 
New York/New Jersey. So we would appreciate the opportunity to 
be able to do that.
    Mr. LAREW. And I would simply echo those thoughts. And from 
the farmer perspective, we need strong access to SNAP and food 
assistance that is critically important for all of us.
    Ms. DAVIDS. Thank you. And thank you for your time, and I 
yield back.
    Chairwoman VELAZQUEZ. The gentlelady's time has expired.
    The gentleman from Oklahoma, Mr. Hern, Ranking Member of 
the Subcommittee on Economic Growth, Tax, and Capital Access is 
recognized.
    Mr. HERN. Thank you, Madam Chairwoman Velazquez, Ranking 
Member Chabot, and our witnesses for testifying today.
    As many of you know, I have been a small business owner in 
the restaurant industry for over 35 years. As a franchisee for 
the McDonald's Corporation, I built an extensive knowledge of 
supply chain operations. Through this experience, I have 
learned that restaurants rely heavily on their supply chain 
operations where success is extremely dependent on the 
efficiency of their wholesalers, distributors, and food supply.
    Unfortunately, as our witnesses have duly noted in their 
written testimonies, COVID-19 has taken a severe toll on each 
of these services. Even with the SBA and USDA's government 
assistance programs, farmers and food suppliers were still 
facing excess supply issues where many of their perishable 
products were going to waste.
    On this Committee, my colleagues often hear me discuss my 
business experiences with restaurants, but what many not know 
is that one of my first ventures was farming. I built and ran a 
successful hog farming operation and also formerly worked on 
numerous poultry farms for Tyson Foods. Because of a background 
within numerous aspects of the supply chain ranging from the 
farm to the storefront, I can attest to the obstacles our 
witnesses have brought forward.
    As one of our witnesses mentioned in her testimony, farmers 
are having to dump produce and euthanize their livestock, which 
is devastating impacts on their bottom lines. These types of 
issues also have a trickle effect. When farmers struggle, our 
wholesalers, distributors, restaurants, and small businesses 
struggle. This burden is then passed on to the American 
consumer who might run into the issues of accessing the food 
supply and certainly will have an impact on their pricing.
    Going forward, Congress must ensure that we take the 
appropriate actions to support the food supply system and 
thereby provide for our local communities during this 
unprecedented time.
    As many of you know, at the brink of COVID-19, Congress 
worked swiftly to pass emergency relief legislation. One of 
those provisions of this relief expanded unemployment insurance 
giving people the ability to draw unemployment and receive an 
additional $600 per week. While well intentioned, this policy 
created undue burdens for many businesses deemed essential. 
These payments were not adjusted for cost of living which 
caused employees to refrain from working as some made more from 
government benefits than they did their actual job.
    Mr. Wright, you touched on this issue in your written 
testimony. Could you please elaborate on the issues you face 
regarding staffing?
    Mr. WRIGHT. Certainly. In the first wave of pandemic we had 
2 weeks that were the largest volume weeks that we have ever 
had and also I think across the industry. As we began to reach 
out into the communities in looking for additional employees, 
that was a challenge. We were very fortunate in our area to 
have some college students that were essentially stuck at 
school with classes being canceled. They came in and kind of 
saved us so to speak. But as we reach through our traditional 
channels, we had very little success on finding people.
    Certainly, I agree with your remarks, Congressman, that 
there was an incentive as a lot of people were making more off 
of unemployment than they were working. I also agree that there 
is some kind of cost of living analysis or metric put into the 
VAT to adjust that. That has changed now for us in the last few 
weeks. Just on Saturday this week I reached out through social 
media with an ad for employees and very quickly by the end of 
the day had 16 applicants. So it was a challenge in the 
beginning but we are seeing improvement on the back side. A 
real struggle on the supply side for people loading trucks and 
warehouse workers and all retailers across the country.
    Mr. HERN. Thank you, Mr. Wright.
    I want to move on to another question. There has been a lot 
of talk about lines of credit, grant program, forgiveness of 
loans. As many of you are very familiar because you have 
addressed this, alluded to it, on the floor we have an 
opportunity to vote on H.R. 8265 that the Ranking Member has 
put forward for us to try to get on the floor for helping our 
small businesses survive. It is $138 billion of money left over 
from the PPP program. Just a simple yes or no, I will start 
with you, Mr. Wright, would you support that if you had the 
opportunity? Would you encourage your congressman or 
congresswoman to support that, the extension of the $138 
billion, very targeted 25 percent down in sales and also it 
would go through the end of the year? Would you have your 
congressman support that, yes or no?
    Mr. WRIGHT. Certain would want to assist all small 
businesses out there. You know, we have seen a dramatic impact 
in our communities.
    Mr. HERN. So Mr. Wright, I am going to take that as a yes. 
I have got 10 seconds left.
    Mr. WRIGHT. Yes. Yes.
    Mr. HERN. I want to get to Ms. Gorton.
    Mr. WRIGHT. I am sorry.
    Mr. HERN. Yeah, Ms.----
    Ms. GORTON. Yes, hi, I am sorry. Could you repeat the 
question? We are having a bad storm here.
    Mr. HERN. No, I am sorry. I do not have time.
    Madam Chair, I yield back.
    Ms. GORTON. Sorry.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    The gentleman from Pennsylvania, Mr. Evans, is recognized 
for 5 minutes.
    Mr. EVANS. Thank you, Madam Chair.
    Ms. Gorton, there is a good business in Philadelphia that 
is similar to yours, Samuels and Son Seafood Company, which is 
a seafood supplier to hotels, restaurants, and casinos. Like 
yours, his business dropped 75 percent in the span of a few 
weeks leaving it with unused products and debt that would not 
be affordable. With nearly two-thirds of fish being consumed 
outside of the home that made businesses like yours adapt to 
survive. What assistance do you need from Congress to help your 
business adapt?
    Ms. GORTON. Thank you. Hopefully you can hear me okay. And 
yes, Samuels and Son is a very well-run company. They are a 
customer of ours.
    What needs to happen to make sure that we get the support, 
we need a few things. First, that Congress includes processors 
and distributors within the scope of any relief that you 
provide. And agencies also at USDA would do likewise in 
formulating relief programs for the food industry.
    Second, despite the fact that you have allocated $300 
million to the seafood industry through NOAA, they have been 
very slow to get the money to the intended recipients. Congress 
passed the CARES Act at the end of March. It took till May for 
NOAA to even announce how they would distribute the funds, and 
funds are still trickling in. We expect to not maybe even be 
able to receive them until the end of the year.
    And then finally, I think that additional funds being 
allotted to the seafood industry in a nonstimulus act, if you 
could establish a firm deadline for NOAA to do that and insist 
that the agency meet those deadlines for any additional funds, 
that would go a long way towards helping processors and 
distributors like Samuels and Son and my company.
    Mr. EVANS. Mr. Wright, I was pleased to see that you 
mentioned the bill that I co-authored with GT Thompson, the 
CHAIN Act which would provide protection for frontline food 
workers. During this pandemic, food workers have been deemed 
essential, yet many of them have not been getting essential 
worker wages they deserve.
    Tell me why you support this bill.
    Mr. WRIGHT. Certainly, our employees that have stuck in 
there and assisted our customers and ran our stores during the 
pandemic, we have great respect for and we refer to them as 
supermarket superheroes. Anything that we can do to award those 
people for that commitment to our communities, to our customers 
in the most important part of our economy which is the food 
chain, especially during this difficult time would be greatly 
appreciated. I think it would be a great act, and I appreciate 
your leadership on that.
    Mr. EVANS. Last question for Mr. Larew.
    Mr. Larew, Philadelphia has over 24 percent poverty which 
means that a significant portion of the city residents 
experience food insecurity. Programs like the Farmer Food Box 
are instrumental in fighting hunger. You mentioned in your 
testimony that this program has been riddled with many 
programs. What can Congress do to fix these problems to make 
the program more effective?
    Mr. LAREW. Yeah, I appreciate that. And it is an important 
issue, right, being able to connect those growers of good 
quality food like your Pennsylvania farmers to consumers and 
making those connections.
    The program that USDA developed I think, you know, had good 
intentions. I think a big piece of this though is making better 
connections to those smaller scale, both distributors and 
farmers. I think that building those stronger connections which 
USDA currently does not have will be one step. But also 
recognizing as we stated before here, recognizing the 
efficiency and benefit of SNAP itself and ways to continue to 
improve not just with this program but also SNAP and other ways 
to continue to build these connections to those who are food 
insecure, it has been an important issue. Thank you.
    Mr. EVANS. I yield back the balance of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize Mr. Bishop, the gentleman from North 
Carolina, for 5 minutes.
    Mr. BISHOP. Thank you, Madam Chairman. And one of the 
things about being so low on the seniority totem pole is that 
sometimes a lot of ground has been covered by the time it gets 
to me. So I would like to focus on just one topic, I think, and 
Mr. Castore, I would like to address a question to you.
    I was minded in your exchange with Mr. Balderson and your 
testimony--or reminded of a fellow named Spiro Kartsonis who 
runs a great little family restaurant in Monroe, North Carolina 
called Hilltop. And he told me shortly after he was required by 
order of the governor of North Carolina to shut down, that he 
had a dead loss of $75,000 of perishable goods in his 
inventory. And you made reference to that in your exchange with 
Mr. Balderson and in your testimony. So it is a working capital 
loss that is irreplaceable for very small businesses in a lot 
of cases. Would you not agree that fixing that through the 
Paycheck Protection Program or a grant or something is critical 
to lots of small businesses being able to survive?
    Mr. CASTORE. Thank you, sir. Yes. I would agree 
wholeheartedly with that sentiment. And I think a couple of the 
other witnesses have kind of touched on it. We made PPP work. 
We fit within the hours, the employer restrictions and 
everything, but having more flexibility if there is another 
round of PPP to cover some of those things, additional grant 
funds, it is absolutely critical. We are small to medium sized. 
There are so many in Ohio that are smaller than us that cannot 
take that $75,000 loss that is closing down.
    Mr. BISHOP. And following that up, and I do not know if it 
was touched on by Mr. Hern, but he said there is $138 billion. 
I think the number is actually $133 billion of money already 
appropriated into the Paycheck Protection Program which has 
basically expired. Ranking Member Chabot has a bill that would 
just amend that to allow folks, companies, all sorts of very 
small businesses who can document a very significant revenue 
loss to get another round of that and they are forgivable loans 
again like the first ones were, so sort of like a grant. And so 
I think there is overwhelming support in the House for that. 
There is a discharge petition pending for people to sign it and 
yet the leadership is blocking it from a vote because we had 
disagreements on illegal immigration and how many trillions 
need to go to state and local governments.
    Do you think the American people are as mystified as I am 
why the House leadership will not allow that one point of 
agreement to go ahead and go forward so people can make use of, 
small businesses can make use of that $138 billion of money 
already appropriated while we otherwise solve these other big 
problems later?
    Mr. CASTORE. You know, I think that it is getting 
increasingly hard. I can hardly think of anyone except maybe 
barring my wife who I agree with the politics entirely on in 
the world, and I am dumbfounded a lot that we cannot focus more 
on the things that we do agree on and the things that we do 
need to do, and this falls into that category. I understand how 
politics gets attached to everything, but this is just small 
business. These are just people who need help. This is exactly 
why government is supposed to be here is to reach out and get 
us through this. We need you guys, and it is one of those 
things that the less we can get all these other issues 
conflated with it and the more we can just say breweries need 
you, restaurants need you, small business needs you, let's get 
something through. We can even fix it. We can add to it later, 
but let's help out in some way because I think a lot of us will 
not be around if it takes too much longer.
    Mr. BISHOP. Yeah. Thank you, Mr. Castore.
    As somebody who is new up here, I do not understand it 
either. And interestingly, we have one more opportunity this 
week before we are gone for October to fix that one little 
problem and make an enormous difference in the lives of all 
these small businesses out there that are struggling to survive 
and all the employees who depend on them.
    With that, Madam Chairman and Ranking Member Chabot, I 
yield back. Thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Mr. Castore, what would you prefer, debt financing or more 
grants?
    Mr. CASTORE. I would prefer all of the above, actually. In 
terms of how I think debt financing works for some people in 
some situations, I think that grants obviously work for some 
people in most every situation. But we need dollars. We need 
options and we need----
    Chairwoman VELAZQUEZ. The CARES Act that we passed back in 
May it is sitting in the Senate side and that includes grants 
and the reforms to make those loans more--to provide more 
access to those businesses that were left behind and, that did 
not have an opportunity to access those loans in the first and 
second tranche that we passed. So as a matter of fairness, that 
is not included in the Ranking Member's legislation but it is 
included in the CARES Act, in the HEROES Act, plus the new bill 
that we just introduced this week.
    Now we recognize the gentleman from Illinois, Mr. 
Schneider, for 5 minutes.
    Mr. SCHNEIDER. Thank you, Madam Chairwoman.
    I want to in particular thank the witnesses today for 
sharing your story. You represent the millions of small 
businesses across our country who are struggling in this 
crisis. The pandemic has affected every aspect of your 
business, their business, and in no small part the impact on 
our supply chains has been devastating.
    And I also want to thank the Committee, and always the 
Committee staff for working through the challenges to allow us 
to have this hearing to talk about this important issue.
    Later today, the House is going to be voting on a bill I 
introduced, a bipartisan piece of legislation, again, the 
example of us coming together, working together. It is called 
the COVID Prepare Act. The idea behind the bill is fairly 
straightforward. As we face the pandemic, as we have struggled 
and so many small businesses have struggled through the spring 
and the summer just scraping by to make ends meet, we need to 
know that all aspects of our Federal government have a plan for 
the expected rise in cases and new challenges we will face in 
the fall and into the winter.
    So the COVID Prepare Act would require each agency to 
present to Congress their plan so the American people will have 
transparency and confidence that their government is working on 
their behalf.
    As our witnesses can attest, a critical aspect of this is 
supply chain, and every stakeholder within the food supply 
chain in particular has had to adapt to the new reality. Like 
all small businesses, they have had to be nimble and figure out 
how to make a square peg fit into a round hole by switching 
from indoor dining to a focus on carryout, shifting from a 
delivery model as direct to consumer or the myriad of other 
ways that they relied on their own creativity simply to stay 
afloat.
    But these small businesses and millions of others around 
the country should not have to be on their own standing alone, 
and that is what has been so deeply frustrating about this 
pandemic, the Federal government not stepping up to this 
challenge to provide industries with the necessary guidance for 
safely operating in this pandemic and finding a way through to 
the other side.
    We all know that small businesses will need additional 
financial assistance. As we just talked about a moment ago, the 
question of whether it is loans or grants is an important 
question. Businesses are already on the edge of financial ruin. 
Many are closing their doors permanent.
    That is why the assistance we are providing in the HEROES 
Act is so important, and the revamped version of that bill 
introduced this week has to come to the floor for a vote and 
ultimately go to the Senate. But we also know that we need 
guidance to get through and operate safely in this new 
environment.
    So let me start with you, Mr. Larew, if that is okay. 
Thanks for joining us, and thanks for all you do on behalf of 
our country as a farmer. One of my colleagues earlier mentioned 
their experience working on a farm. I worked on a chicken farm 
as well. I know how hard it is from a day-to-day basis, but 
more importantly, I understand the complexities of trying to 
get product to market on a consistent basis.
    As you highlight in your testimony, with meat packing 
facilities, certain parts of the food supply chain were 
particularly impacted by COVID-19 because they could either not 
or would not enact social distancing measures, and if they 
could it had a severe impact on capacity.
    Looking forward to the fall and the winter, what guidance 
can Federal government provide from USDA, OSHA, and other 
Federal agencies that would help agricultural producers 
maintain capacity while incorporating best practices and social 
distancing?
    Mr. LAREW. Thank you. And thank you for the question there.
    So one of the first things I think that bears repeating 
here is the need to build more resilience into the system, 
which I think would be beneficial from the farm level, actually 
through the food chain itself, and particularly for farm 
workers and for those food workers who have been severely 
impacted.
    So building that resilience involves a couple of things. 
First of all, it is trying to remove some of the level of 
concentration that is currently there, which involves anti-
trust enforcement. It is also supporting the ability for small 
and very small processing plants right now to be able to get 
their inspection to a level that they have more markets 
available. Currently, it is cost-prohibitive for those small 
and very small plants to be able to meet a level of inspection 
that allows them to shift interstate. And so supporting 
measures like the RAMP-UP Act is one of those pieces there.
    The more that we can build resilience by taking the amount 
of workers that we have I think, you know, as I mentioned 
earlier, 50 meat processing plants process 98 percent of the 
meat in this country. That is not good for farmers. It is not 
good ultimately for the food chain and its resilience, and 
ultimately for our food security. So from a farmer and consumer 
point of view it is all about building that resilience.
    Mr. SCHNEIDER. Thank you. And I am out of time but let me 
just say with one last concluding thought, I know how hard it 
is for you as business owners, business leaders, but also the 
employees in your businesses. These essential workers are 
showing up to work every day. We are so grateful for them. For 
all you do, for all they do, thank you. And we will work to 
make sure we get the relief necessary to move forward.
    With that I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    The gentleman from Tennessee, Mr. Burchett, is recognized 
for 5 minutes.
    Mr. BURCHETT. Thank you, Chairlady. I appreciate you all 
being here and appreciate the panel very much.
    I see one person up there, Mr. Wright, who probably does 
not speak with an accent. I think I saw where he was from 
Alabama, so I might just call on him if that is all right.
    I am from Tennessee, so we can say that. I guess some are 
snickering but I guess they get it pretty quick.
    How long did it take you to obtain your PPE?
    Mr. WRIGHT. I think it took probably less than 4 weeks for 
us to get that. We were very fortunate in the fact of having a 
medium-sized bank that still has local leadership in it that 
kind of held our hand through that. So I think it was maybe 3 
to 4 weeks at the most.
    Mr. SCHNEIDER. Okay. You recorded in your testimony as 
saying that you doubled the rate of pay for our employees early 
in the pandemic and provided bonuses and overtime pay as the 
pandemic wore on. Have your employees returned to their pre-
pandemic wages?
    Mr. WRIGHT. What we did on that is that we paid an extra 
week of pay for the first month and the second month. We 
transferred our debt over to a percentage of their pay. 
Everyone has returned to the same level of pay. We continued to 
put some stuff out there time to time, but I chose to go the 
bonus route with that extra week pay.
    Mr. BURCHETT. Right. Okay. Has the $600 per pay in 
unemployment compensation affected your store's workforce?
    Mr. WRIGHT. Early on we saw the challenges with that as we 
tried to reach out. And again, we were fortunate to find some 
college students from Auburn that we were able to employ on a 
short-term basis. Again, that has improved now in the last few 
weeks reaching out. So initially it was an issue.
    Mr. BURCHETT. Great.
    Mr. Larew, let me ask you a question. Can you walk us 
through a farmer's decision-making process when faced with 
supply chain shocks?
    Mr. LAREW. Yeah, well, that is a massive question. But you 
know, which can vary greatly. And I might just reference the 
reason why it is complicated, it is pretty obvious in the sense 
that if you are a hog producer and you are raising a set of 
animals up, they are being primed to be ready for market at a 
certain weight to be processed. And when those challenges 
happened that is where you saw processing plants being shut 
down and therefore forcing producers to make very difficult 
choices and in many cases needing to euthanize those animals.
    If we are talking about beef, for those independent 
ranchers out there, beyond the complexities of trying to 
determine what the market price truly is, they also struggled 
with these beef plant closures. For them, they can put animals 
either on feed or on pasture for a little bit longer but those 
take those animals out of condition if you will and means that 
their ultimate price that they are going to get is much lower 
and obviously, their input costs are higher.
    If you were storing grain, that is a very different matter, 
but the grain markets pretty much across the board have been 
severely low for many, many years. So for all of these farmers 
who have been operating on very low margins, these disruptions 
along the supply chains have just been really devastating and 
really kind of compounded the economic challenges that they 
already had.
    Mr. BURCHETT. I have found in Tennessee the meat 
processors, they used to call them slaughter houses but I guess 
that is not politically correct, but the meat processors, it is 
hard to find one, and when you do you have to schedule them out 
months in advance and that is just not a way to do business.
    I do not know if it is by design or not, but during this 
whole thing I have noticed that the big boys are systematically 
going to crush the little people and I have found also that 
over half of our meat processors in this country are foreign 
owned and that to me is a scary proposition. It is very scary. 
And thank you for that.
    How much time do I have? I have 41 seconds. I will have to 
go quick.
    Mr. Castore--I do not know if I am saying that right or 
not--why does a brewery make more money from taproom sales than 
sales through distributors?
    Mr. CASTORE. First and foremost, it is the cost of the 
packaging. The packages that we put our beer into cost as much 
if not more than the liquid itself. Each can runs about 20 
cents. You have your Packtracker on top of it. The cardboard 
case trays that they go into. Then you have delivery drivers, 
other parts of the supply chain, and they just add up the cost. 
That direct to consumer, I am just handing a can of beer to 
somebody and they are giving me $6.
    Mr. BURCHETT. Okay. Well, I have run out of time.
    For the record, Chairlady, I just want you to know I have 
had more beer spilled on me than I have ever drank, so being a 
Baptist I need to say that.
    Chairwoman VELAZQUEZ. The gentleman----
    Mr. BURCHETT. And you know the difference between a Baptist 
and Methodist, don't you, Chairlady? A Baptist does not speak 
to you in the liquor store. So thank you all.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    Mr. BURCHETT. Thank you, Chairlady.
    Chairwoman VELAZQUEZ. The gentlelady from Minnesota, Ms. 
Craig, is recognized for 5 minutes.
    Ms. CRAIG. Well, thank you so much, Madam Chairwoman. And I 
want to say thank you to both you and the Ranking Member for 
holding this incredibly important hearing today.
    As mentioned in various testimony, the reason for this 
domino effect on our food systems is really down to the tightly 
bound food supply chain which is incredibly reliant on each 
step with little room for error.
    I am a member of both the House Ag and this Committee, and 
I have seen firsthand during this pandemic how the food supply 
chain from farmers to meat processors to grocery stores to 
fisheries to restaurants and more has been greatly affected by 
this pandemic.
    I also am a cofounder of the bipartisan Congressional 
Supply Chain Caucus. I have been working directly with leaders 
back in my district and here in D.C. to learn more about this 
domino effect.
    One industry that is a piece of the food supply chain and 
that I know we have in all of our districts are these local 
independent restaurants. The independent restaurant industry 
continues to suffer as more are forced to close their doors, 
and now in places like Minnesota, they are forced to figure out 
how they are going to stay afloat when they lose that outdoor 
seating. It gets pretty cold in Minnesota and it is impossible 
to sit outdoors in the winter.
    So I have two questions related to restaurants. The first 
for Ms. Gorton and the second for Mr. Larew. Mr. Larew, it is 
great to see you.
    I will get my questions out of the way and then I will ask 
each of you to answer those afterwards.
    Ms. Gorton, you spoke about the trouble restaurants are in 
in your testimony. Can you speak to how giving restaurants as 
proposed by the updated HEROES Act, which contains $120 billion 
for payroll and other expenses would help your business, 
restaurants, and the overall health of the food supply chain?
    And then second, Mr. Larew, I have heard extensively from 
farmers in my district that programs to connect with local 
schools and restaurants would be beneficial. Obviously, I am 
right there with Ms. Finkenauer with the RAMP-UP Act. What 
programs do you think could be helpful to increase the pipeline 
of farm products to restaurants and to diversifying our food 
supply chains?
    So first, Ms. Gorton?
    Ms. GORTON. Thank you.
    The recently updated HEROES Act does a lot to address the 
plight of restaurants, allowing for more flexibility for the 
forgiveness of debt payments to us, their suppliers. And for 
forgivability of the cost of supplies. And so this certain goes 
a long way to sort of the reverse domino effect. If we can help 
the ultimate restaurants, that is going to flow back up the 
supply chain. It is going to unstick product from being backed 
up in the supply chain. It is going to allow us as suppliers to 
your constituents and their independent restaurants to continue 
to extend credit and provide food as they ramp up and try to 
fill up their pantries again.
    I might say, however, though that while the independent 
restaurants are absolutely hurting, one of the things that is 
overlooked in this current bill are franchise restaurants. And 
I just want to make one comment about that.
    I think that there seems to be a misperception that the 
name on the outside of the restaurant that is associated with a 
chain means that there is money flowing into those restaurants 
from the franchisor. Many of the small franchisees are just 
like independent operators. They may have more than one 
location but they, too, are suffering from the same problems 
created by the pandemic, the smaller, independent restaurants.
    So I would encourage Congress to include franchisees in any 
relief that is provided. Thank you.
    Ms. CRAIG. Thank you so much, Ms. Gorton.
    And Mr. Larew?
    Mr. LAREW. Absolutely. Thank you for the question because 
it is always important to try to find those connections from 
the family farmers out there to the businesses themselves and 
in this case, independent restaurants.
    There are a number of USDA programs that Congress included 
in the most recent Farm Bill which I think is really helpful, 
and the more that we can do to confer use of that, but the land 
program which is a local agriculture market program really 
helps farmers out there build marketing plans, build 
connections out there that would include those restaurants. It 
also ties in with farmers markets as well. And also, the local 
food promotion programs. Those, along with the Farm to School 
grant program collectively work to try to build these 
connections.
    So the more that we can do to kind of reinforce the access 
to these programs I think will get us a long step toward 
building that resilience they speak of.
    Ms. CRAIG. Thank you so much, Mr. Larew.
    Anda Madam Chairwoman, it appears I am out of time, so I 
will yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentlelady yields 
back.
    Thank you again to all our witnesses today for their 
testimony and for offering their views on the challenges facing 
America's food system and what America's small businesses need 
to recover from this historic, unprecedented crisis.
    By sharing your experiences, we will be able to better 
assist all small businesses in the difficult road ahead. Even 
though I am proud of both the PPP and EIDL programs, we must 
continue to work to find other ways to assist our country's 
small businesses from restaurants and grocery stores to famers 
and processors so that they and their workers can continue to 
ensure that the rest of us can have access to food, whether 
from a store, a restaurant, a farmer's market, or a food 
pantry.
    I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered.
    If there is no further business before the Committee, we 
are adjourned.
    [Whereupon, at 11:37 a.m., the committee was adjourned.]
                            
                            
                            A P P E N D I X


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
